U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jerald Dean Godwin v. United States of America
S.Ct. No. 20-7137

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 8,
2021, and placed on the docket on February 12, 2021. The government’s response is due on
March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7137
GODWIN, JERALD DEAN
USA

MACKENZIE S LUND
FEDERAL DEFENDERS MIDDLE DISTRICT OF
ALABAMA
817 SOUTH COURT STREET
MONTGOMERY, AL 36104
334-834-2099

